Supreme Court, U.S.
FILED

No.

/1-U38
nFFICE OF THE CLERK

IN THE

SUPREME COURT of the UNITED STATES
Lisa L. Watson, Petitioner
v.

Mark Esper, Secretary of the US Army

On Petition for Writ of Certiorari
To The United States Court of Appeals for the Fifth Circuit

PETITION FOR WRIT OF CERTIORARI

Lisa L. Watson
Counsel of Record
Prose’
Pendleton Square #11
Philadelphia, MS 39350
(601) 594-5024

RECEIVED
APR 2 0 2020
OFFICE OF THE CLERK
SUPREME COURT-!) fi

QUESTIONS PRESENTED FOR REVIEW

1. Where is the initial performance upon which grounds the agency fired me for
this employer’s adverse action after my alleged failure of the so called initial,
the 90 day, the PIP?
2. Why were my concerns about the conflict of the scores from the 90 day plan
not addressed?
3. Why didn’t the court of appeals address the change of my responsibility after
which the district court indicated the change is not considered adverse unless
there is a change in my responsibility?
4. Why didn’t the court of appeals require the agency to provide the proof that
one comparant was allowed to work overtime/comp time without meeting
productivity and why didn’t either the USCA or the USDC answer as to why
both comparants named were able to receive preferential treatment by being
able to work on the first day of hire using paper audits without the HIPAA
clearance requirement as well as entitled to an exemption from working the
90 day plan?
5. Why did the court of appeals dismiss my prima facie facts for the
nonselection, denial of comp time, and termination and not question why the
district court cited one comparant only and not the other comparant that was
treated more favorable than me?
6. Why didn’t the court of appeals question why the district court didn’t require
of the agency to have punished all auditors with a PIP after the physician
workstation errors were common to all auditors?
7. Why was ICD-10 training never based on my meeting productivity? It was
punitive because I was already placed in an illegal 90 day plan after failing
the so called initial.
8. WHiy did both USDC and USCA discredit my partial recordings agreeing with
the Agency that they won’t prove anything, even the discriminatory reasons
for the adverse action of wrongful termination, except favor the agency’s
defense without considering ALL of the recordings?

(i)

LIST OF ALL PARTIES TO THE PROCEEDING
UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT-Lisa L.
Watson, Plaintiff-Appellant v. Mak Esper, Secretary, Department of the Army,
Defendant-Appellee
UNITED STATES DISTRICT COURT for the Western District of Texas-Lisa L.
Watson, Plaintiff v. Mark Esper, Defendant, Civil Action No. 5:17-cv-1280-OLG
UNITED STATES EQUAL EMPLOYMENT COMMISSION OFFICE OF FEDERAL
OPERATIONS-Lisa L. Watson, aka Juli Z., Complainant v. Robert M. Speer, Acting
Secretary, Department of the Army
AJ HEARING- United States of America, EEOC, San Antonio Field Office, Lisa L.
Watson, Complainant vs. Department of the Army, Agency

CORPORATE DISCLOSURE STATEMENT
Appeal Case Number, USCA #19-50450/Watson’s Principal Brief; the undersigned
'N

counsel of record certifies that the following listed persons and entities have an
interest in the outcome of this case:

Lisa Watson, (Plaintiff); Mark Esper,

Secretary, Department of the Army (Defendant); James Dingivan, Attorney for
Agency; Navient Department of Education Loan Servicing; Mississippi Internal
Revenue DelinquenHState/Tax, GM Financial and Citizens Bank of Philadelphia.
Prose of record
Lisa L. Watson

(ii)

TABLE OF CONTENTS AND CITED AUTHORITIES
QUESTIONS PRESENTED FOR REVIEW p. (i)
LIST OF ALL PARTIES TO THE PROCEEDING p. (ii)
CORPORATE DISCLOSURE STATEMENT p (ii)
TABLE OF CONTENTS/TABLE OF AUTHORITIES pp. (in, iv, v)
LIST ALL PROCEEDINGS IN OTHER COURTS pp. 1-2
CITATIONS OF THE OFFICIAL/UNOFFICIAL REPORTS OF
OPINIONS/ORDERS BY COURTS OR ADMINISTRATIVE AGENCY p. 2-3
JURISDICTIONAL STATEMENT p .3
>_

CONSTITUTIONAL PROVISIONS TREATIES STATUTES ORDINANCES
REGULATIONS INVOLVED IN THIS CASE p. 4
CONCISE STATEMENT OF THE CASE pp. 4-26
DIRECT AND CONCISE ARGUMENT AMPLIFYING THE REASONS RELIED
ON FOR WRIT ALLOWANCE pp. 26-33
INDEX TO APPENDICES
A. IN THE UNITED STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT-Pursuant to 5th CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under

(iii)

the limited circumstances set forth in 5th CIR.R. 47.5.4. December 4,
2019
B. USCA 5™ CIRCUIT OPINIONS, ORDERS, FINDING OF FACT
USCA 5th Circuit Order Affirming USDC’s Summary Judgment &
Denying Appellant’s 10/1/2019 Motion (Case: 19-50450, Document
00515223446, December 4, 2019, pp 2-5)
C. Appellant’s Petition for En Banc/Rehearing (Case: 19-50450, December
17, 2019, pp 1-9)
D. USCA 5th Circuit Denied Appellant’s En Banc Rehearing
Petition(Case: 19-50450, Document 00515272072, January 14, 2020,
PP 1-2)
E. Appellant’s Response to Order/Motion for Oral Argument (Case: 1950450, Document 00515284563, January 24, 2020, pp 1-7)
F. USDC WESTERN DISTRICT OF TEXAS OPINIONS, ORDERS,
FINDING OF FACT, Order Affirming Full Adoption of Magistrate’s R
& R (Case: 5:17-cv-01280-OLG, Document 29, March 18, 2019, pp. 1-3)
G. Magistrate Judge Report and Recommendation (Case: 5:17-cv-01280OLG, Document 26, February 26, 2019, pp. 4, 7, 10-16, 18-19)
H. Plaintiffs Response to Magistrate’s R & R (Case: 5:17-cv-01280-OLG,
Document 28, March 12, 2019, pp. 1-23)

(iv)

I. Defendant’s Supplemental Motion for Summary Judgment Briefing
(Case: 5:17-cv-01280-OLG-ESC, Document 21, September 26, 2018 (pp.
2-6, 9)
J. Appellant’s Response to Defendant’s Motion for Summary Judgment
(Case:5:17-cv-01280-OLG, Document 22, October 3, 2018, pp. 1-99)
K. Appellant’s Motion for Reconsideration (Case: 5:17-cv-01280-OLG,
Document 31, April 1, 2019, pp. 1-115)
L. USDC Denied Motion 31 (Case: 5:17-cv-01280-OLG, Document 35,
April 22, 2019, pp. 1-6
M. Appellant’s Motion to Amend Judgment (Case: 5:17-cv-01280-OLG,
Document 36, April 30, 2019, pp. 1-7
N. USDC Denied Motion 36 (Case: 5:17-cv-01280-OLG, Document 36,
May 9, 2019, pp. 1-4
O. OFO OPINIONS, ORDERS, FINDING OF FACT, US EEOC Decision
(Appeal No. 0120151727, Hearing No. 451-2014-00176X, Agency No.
ARFTSAM13Jan00053, 7 pp, June 2, 2017)
P. ADMINISTRATIVE JUDGE HEARING OPINIONS, ORDERS,
FINDING OF FACT, ADMINISTRATIVE HEARING DECISION
(EEOC Case no. 451-2014-00176X, Agency no.
ARTFTSAM13JAN00053, AJ: Hon. Linda Guitierrez, 27 pp. February
11, 2015)(USDC of Western Texas Reference, Document 26, p 7 of 21,
February 26, 2019)

(v)

CONCLUSION p 33
CERTIFICATE OF SERVICE p 34

(vi) '

LIST ALL PROCEEDINGS IN OTHER COURTS
Court in Question Docket Number

Case Caption

Date of Judgment Entry

USCA affirms
USDC/denies
10/1/2019 Motions
Appellant’s
19-50450
USCA 5th CIR
EnBanc Petition
USCA Denied
USCA 5th CIR
19-50450
Rehearing
Appellant’s
19-50450
USCA 5th CIR
Response to Order
5:17-CV-1280-OLG
USDC Order
USDC
Adopting R&R
Magistrate’s R&R
5:17-CV-1280-OLG
USDC
Plaintiffs
5:17-CV-1280-OLG
USDC
Response to R&R
Defendant’s
5:17-CV-1280-OLG
USDC
Supplemental SJ
5:17-CV-1280-OLG
Plaintiff s
USDC
Response
5:17-CV-1280-OLG
Plaintiff s Motion
USDC
for New Trial
5:17-CV-1280-OLG
USDC Denied
USDC
Motion
5:17-CV-1280-OLG
Plaintiffs Motion
USDC
to Alter/Amend
Judgement
5:17-CV-1280-OLG
USDC Denied
USDC
Motion
OFO Decision
Appeal# 0120151727
US EEOC/OFO
Appeal# 0120151727
Appellant’s
US EEOC/OFO
Reconsideration
Motion OFO
OFO Decision on
Appeal# 0120151727
US EEOC/OFO
Reconsideration
Administrative
AJ HEARING
EEOC Case No.
Hearing Decision
451-2014-00176X
Order Entering
EEOC Case No.
AJ HEARING
451-2014-00176X
Judgement
ARFTSAM13JAN00053
Final Agency
DEPARTMENT of
Action (FAD)
ARMY
Appellant’s
US EEOC/OFO
EEOC Case No.
USCA 5* CIR

19-50450

1

2019/12/04
2019/12/17
2020/01/14
2020/01/24
2019/03/18
2019/02/26
2019/03/12
2018/09/26
2018/10/03
2019/04/01
2019/04/22
2019/04/30
2019/05/09
2017/06/02
2017/07/05
2017/09/21
2015/02/18
2015/03/07
2015/03/20
2015/05/18

Shreveport, 492 F.3d 551, 556 (5th Cir. 2007)( USDC Document 21, p 4 of 10,
9/26/19): Nasti, 492 F.3d at 593 (USDC Document 21, p 8 of 10, 9/26/19): Paul v.
Elayn Hunt Corr. Ctr., 666 Fed. App’x 342, 347 (5th Cir. 2016) (citing Watts, 170
F.3d at 512) (USDC, Document 26 p 14-15 of 21, 02/26/2019): Pegrum v. Honeywell,
Inc., 361 F.3d 272,282 (5th Cir.2004) (USDC, Document 26 p 10 of 21, 02/26/2019):
Roberson v. Alltel Info. Servs., 373 F.3d 647, 651 (5th Cir. 2004) (USCA 5th Circuit,
Document 00515223446, p 3, 12/4/2019): Toronka v. Conti Airlines, Inc, 411 F.App’x
719, 723 (5th Cir. 2011)(USDC Document 21, p 4 of 10, 9/26/19): Watts vs. Kroger
Co., 170 F.3d 505, 512 (5th Cir. 1999 (USDC, Document 26 p 14-15 of 21,
02/26/2019): Wittmer v. Phillips 66 Co., 915 F.3d 328, 332 (5th Cir. 2019) (USCA 5th
Circuit, Document 00515223446, p 3, 12/4/2019)
JURISDICTIONAL STATEMENT
Having sought clarification of my complaints of discrimination through USCA 5th
circuit and US District Court of Western Texas, San Antonio, Division, I come to the
/

United States Supreme Court to help me reach a complete resolve through the 8
questions presented following the January 14, 2020, Order from USCA 5th circuit
denying my request for rehearing/en banc. Because these questions were timely
and properly presented during all proceedings of this case shows that the Supreme
Court has jurisdiction to review the judgment on a writ of certiorari. Thank you for
this opportunity for justice.

3

451-2014-00176X

Appeal & Brief of
FAD

CITATIONS OF THE OFFICIAL/UNOFFICIAL REPORTS OF
OPINIONS/ORDERS BY COURTS OR ADMINISTRATIVE AGENCY
IN THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUITPursuant to 5th CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth
in 5th CIR.R. 47.5.4. December 4, 2019' pi.
IN THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUITJudgment Issued as Mandate, January 22, 2020
UNITED STATES DISTRICT COURT FOR THE WESTERN DISTRICT OF
TEXAS-Judgment In a Civil Action/Order Adopting in Full Magistrate’s R & R,
Document 30, 2pp, Mar. 18, 2019
28 U.S.C. § 636 (b)(l)(USDC, Document 29 p 1 of 3, 03/18/2019): Anderson, 477 U.S.
at 250 (citation omitted)(USDC Document 21, p 2 of 10, 9/26/19): Auguster, 249
F.3d at 402-403 (USDC Document 21, p 8 of 10, 9/26/19): Celotex Corp., 477 U.S. at
322 (USDC Document 21, p 4 of 10, 9/26/19): Garcia v. Profl Contract Servs., Inc.,
938 F.3d 236, 241 (5th Circ. 2019) (USCA 5th Circuit, Document 00515223446, p 4,
12/4/2019): Fed R.CivP(56a.) (USDC Document 21, p 2 of 10, 9/26/19): Jackson, 601
Fed. App’x at 286: McCoy v. City of Shreveport, 492 F.3d 551, 559 (5th Cir. 2007)
(USCA 5th Circuit, Document 00515223446, p 4, 12/4/2019): McCoy v. City of
2

CONSTITUTIONAL PROVISIONS TREATIES STATUTES ORDINANCES
REGULATIONS INVOLVED IN THIS CASE
28 U.SC. § 636(b)(1): Fed. R. Civ.P. 56(a): Fed.R.Civ.P.72(b): Title VII of the Civil
Rights Act-42 U.S.C. § 2000e:
CONCISE STATEMENT OF THE CASE
The lack of the demonstrative evidence of the alleged failure of a so called initial
performance question was raised during all levels of the proceedings with the sworn
testimonies during the Report of Investigation, Administrative Judge Hearing,
Office of Federal Operations, US District Court and lastly US Court of Appeals. In
the USCA, the following facts are material to this question presented: USDC, OFO,
AJ Hearing.
USCA 5th Circuit stated ‘She struggled in her job from the beginning. After failing
an initial quality assurance review, she was given ninety days to earn a passing
score. She never did.1’ (USCA, USCA 5th Circuit Affirms USDC summary judgment.
document 00515223446, p.2, 2019/12/04)
In my petition for panel hearing/rehearing en banc, I asked for reconsideration the
concise statement under item 2: ‘No initial performance documentation to justify
the 30-60-90, PIP provided by the agency.’ (USCA 5th Circuit, APPELLANT’S
PETITION FOR PANEL HEARING/REHEARING EN BANC, P 1, 2019/12/17)

4

USDC R&R stated, ‘The counseling document indicated that based on initial coding
results from Quality Assurance (“QA”) Watson’s performance would be rated as
“Fails” had she been under performance standards during her first few months of
employment.’ (ROI [#10-2] at 6.) (USDC, USDC Magistrate’s R & R, p. 4,
2019/02/26)
In the Defendant’s Supplementary Motion for Summary Judgment Briefing, my
initial performance is not addressed at all. It is stated, ‘Summary Judgment is
appropriate when “the movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law. Fed. R.
Civ.P. 56(a). (USDC, Defendant’s Motion for Summary Judgment, p. 2, 2018/09/26)
It is also stated, ‘If Defendant shows there is no genuine dispute as to any material
fact, Plaintiff “must set forth specific facts showing that there is a genuine issue for
trial.” Anderson, 477 U.S. at 250 (citation omitted). (USDC, Defendant’s Motion for
Summary Judgment, p. 3, 2018/09/26). The Defendant believes that only two of my
grievances constitute adverse employment actions when he stated, ‘Of the seven
grievances described by Plaintiff, only two are adverse employment actions
(termination and non-selection) for the purposes of a discrimination analysis.
(USDC, Defendant’s Motion for Summary Judgment, p. 4, 2018/09/26).
In my Appellant’s Response to Defendant’s Motion for Summary Judgment, I asked:
‘What didn’t happen? No proof of initial performance. Agency alleges
that I failed my initial performance at 67% when in fact I never had an
initial. They even indicated that I was placed on a 30-60-90 that ended
sometime in December of 2012 because I failed this so called initial at
67%. The truth is that these were my personal questions from a paper
5

In my Response to the Defendant’s Motion for Summary Judgment, I mentioned:
‘What about the lack of the training plan SOP. Grading method was
not unique to all. They used the one I created. It was used
aggressively with the new hires. They worked paper audits daily
before they received their clearance. It was not just me believing the
grading system was based on an honor system and not a SOP for the
trainers responsible for conducting the personnel audits on the
auditor’s performance. I had two witnesses that were prepared to
testify on my behalf about this but they weren’t allowed to come during
the AJ stage.’ (USDC, Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-01280-OLG, Document 22,
2018/10/03, p. 3)
In my Response to the Defendant’s Motion for Summary Judgment, I stated:
‘Testimony from Ms. Shears, one of the trainers, proved that the
grading system was not fair and on an honor system. She stated she
chose the records containing the last 3 like 3,13, 23 or 6,16, 26 if she
runs out. I asked Ms. Leal on several occasions if a SOP existed for
the trainers to ascertain consistency and fairness when grading an
auditor. She refused every single time. When I provided a response
to my former counsel that I had two peers to testify about the
unfair grading system, the AJ didn't allow them to come. Ms.
Shears also stated in an April 9th meeting that she's usually all over
the place when she selects the population of charts to audit for
grading. Ms. Shear's character email of my performance on
mediation is attached.’ (dckt # 13, pp. 187-188 of 349) (dckt # 13, p.
180 of 349) (dckt # 13 , p. 181 of 349)(p.306 of 349). (USDC,
Appellant’s Response to Defendant’s Motion for Summary Judgment,
Case: 5:17-cv-01280-OLG, Document 22, p.15, 2018/10/03)
In my Appellant’s Response to Defendant’s Motion for Summary Judgment, I
mentioned my direct observation of a bad grading system by another trainer, Ms.
Duffy, who happens to be the same trainer who graded my one audit, not 30 audits,
to derive at that bogus initial performance at 67%, ‘I directly observed an obvious
honor system grading method used by trainer, Ms. Duffy, when she showed me
7

audit that I chose on my own training. I had written questions in the
margins to ask later. When I gave Dawn, the trainer, my questions to
ask her. She took it and graded it.’ (USDC, Appellant’s Response to
Defendant’s Motion for Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p3, 2018/10/03)
In my Appellant’s Response to Defendant’s Motion for Summary Judgment, I asked.‘I took notes from the 1/28/15 hearing that I gave my
former counsel for cross exam questions. I still don't
understand why Ms. Leal said she didn't want to put me
on the live audit. She did it because she was short
staffed. I feel that she chose me because my scores were
in the high 80s and 90s after the 90 day. Mind you,
these scores were borderline the required accuracy of
93% without any initial training using the fast paced
paper audits with a senior auditor. The initial training
was never done. The agency used the 67% derived from
my own questions from the
paper audits I chose to train myself. Strangely enough,
what a drastic improvement from 67% to high 80s-90s
% within a 30 day time period. My standards were
given October 2012.1 was placed on a 30-60-90 in
October 2012 as well. That really jabs me. Ms. Leal
also testified that the dead audit has been dead for
almost 2 years because she's been short staffed and no
one has worked that audit since I was terminated.’
(dckt# 13, pp. 186-187 of 349) (USDC, Appellant’s
Response to Defendant’s Motion for Summary
Judgment, Case: 5:17-cv-01280-OLG, Document 22, p.
14, 2018/10/03)

Concerning the 90 Day Scores Conflict Question, USCA stated in footnote 1,
‘Watson underwent three performance reviews but never achieved the required
accuracy standard of 93% on her assessments. She fared no better in her “live”
audit; amongst the litany of errors committed, she incorrectly copy-and-pasted a
generic message 140 times.’ (USCA, USCA Affirms USDC summary judgment,
document 00515223446, p.2, 2019/12/04)
6

how to prepare an auditor's report and how to select every other record on my
list.’ (dckt# 13, pp. 149-151 of 349). (USDC, Appellant’s Response to Defendant’s
Motion for Summary Judgment, Case: 5:17-cv-01280-OLG, Document 22, p.16,
2018/10/03)
My question about the change in responsibility was raised at the USDC and USCA.
The following facts are material to this question presented: USDC, OFO, AJ
Hearing. USCA 5th Circuit stated, ‘To survive summary judgment, Watson must
show the alleged harassment was “sufficiently severe or pervasive to alter the
conditions of the victim’s employment and create an abusive working environment.’
(USCA, USCA Affirms USDC summary judgment, document 00515223446, p.5,
2019/12/04)
In the magistrate’s R & R, it is stated:
Circuit law also forecloses any contention by Plaintiff that her
subjection to a less desirable audit, i.e., an adverse change in her work
assignments, constituted an adverse employment action for purposes of
her retaliation claim, as she does not allege a change in her pay,
benefits, or level of responsibility as a result of the employer’s action.
See Watts vs. Kroger Co., 170 F.3d 505, 512 (5th Cir. 1999) (“We have
held, along with many of our sister circuits, that employment actions
are not adverse where pay, benefits, and level of responsibility remain
the same.”); see also Paul v. Elayn Hunt Corr. Ctr., 666 Fed. App’x 342,
347 (5th Cir. 2016) (citing Watts, 170 F.3d at 512) (reassignments are
not materially adverse unless accompanied by other change in
employee status). (USDC, USDC Magistrate’s R & R, p. 14, 15,
2019/02/26)
In my response to the Defendant’s Motion for Summary Judgment, I stated: .
Harsh work environment, when I was forced to work the
dead audit. No other auditor including the new hires
8

worked this dead audit. Ms. Leal told me it was just as
important as the live audit but yet I was the ONLY
person to work it. When I left, I was told it was never
touched again by anyone. The dead audit doesn't allow
the auditor to complete mediation or reports which are
key elements to the job in addition to the auditing.
(USDC, Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-01280-OLG, Document
22, p.4, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I
stated, Supervisor never wanted me to grow and perform my job as an
auditor. She stated she never wanted to put me on the live audit. 'I
made a decision to place you on the live audit. I was not going to. I was
going to keep you in the May audit {Dead Audit)’, (dckt #13 p. 7 of 349)
(USDC, Appellant’s Response to Defendant’s Motion for Summary
Judgment, Case: 5:17-cv-01280-OLG, Document 22, p.7, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I stated:
‘Reassignment to dead audit caused a lot of stress,
demoralizing feelings of alienation as I strongly felt
that the reassignment was sudden and inappropriate.
The reassignment was due to the physician
workstation errors but these errors applied to all the
auditors. The harsh expectations were unreal because I
was expected to produce in a work environment that
was unlike my peers. I couldn't mediate, or prepare
reports on the dead audit. I too felt the reassignment
was an indirect justification for Ms. Leal to deny my
ICD-10 training’ (dckt# 13, pp. 144-146 of 349).
(USDC, Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-01280-OLG,
Document 4, p.13, 2018/10/03)

9

In the magistrate’s R & R it is stated, ‘As to Watson’s allegations regarding
Defendants’ failure to hire her for a permanent position, the only comparator
identified in the record is Mary Saenz, a Hispanic woman selected for vacancy
number 027272, which was posted in November 2012 and filled in January 2013.3’
(Announcement [#10-8] at 103.) (USDC, USDC Magistrate’s R & R, p. 11,
2019/02/26)
In the magistrate’s R & R it is stated, ‘However, despite any difference in
qualifications, it is undisputed that by January 2013-when the hiring decision was
made-Watson had already received multiple performance counseling documents, all
of which rated Watson’s performance as failing.’ (Oct. 2012 Counseling [#10-3] at
25; Nov. 2012 Counseling [#10-2] at 64; Dec 2012 Counseling [#10-2] at 72) (USDC,
USDC Magistrate’s R & R, p. 11, 2019/02/26)
In the magistrate’s R & R it is stated:
‘ Moreover, even if Watson had identified a valid comparator and
satisfied her prima facie burden, Defendant would still be entitled to
summary judgment because it has proffered competent summary
judgment evidence of a nondiscriminatory reason for the termination
and decision not to hire or promote Watson-her documented pattern of
performance issues-and Watson has failed to establish pretext.’ (See
Oct. 2012 Counseling [#10-3] at 25; Senior System Civilian Evaluation
Rep. [#10-3] at 12; Nov. 2012 Counseling [#10-2] at 64; Dec. 2012
Counseling [#10-2] at 72; Feb.2013 Counseling [#10-2] at 494; Mar.
2013 Counseling [#10-3] at 1; PIP [#10-3] at 230-41.) (USDC, USDC
Magistrate’s R & R, p. 12, 2019/02/26).
In the Defendant’s Motion for Summary Judgment, it is stated in footnote 3, ‘Page
603 of the ROI shows that Ms. Saenz and a Ms. Maria Gomez were both selected for
11

My question pertaining to the one comparant who was allowed to work CT and was
not meeting productivity was raised during all levels of the proceedings of my case
but was never answered with the demonstrative evidence the CARA report with the
sworn testimonies during the Report of Investigation, Administrative Judge
Hearing, Office of Federal Operations, US District Court and lastly US Court of
Appeals. I. In the USCA. The following facts are material to this question
presented: USDC, OFO, AJ Hearing.
In my petition for panel hearing/rehearing en banc, I asked for reconsideration the
concise statement under item 1: ‘Comparant for prima facia, Ms.Saenz. No CARA
productivity sheet during February 2013 provided.’ (USCA 5th Circuit,
APPELLANT’S PETITION FOR PANEL HEARING/REHEARING EN BANC, P 1,
2019/12/17)
In the magistrate’s R & R it is stated, ‘Accordingly, only Watson’s termination,
denial of leave, and lack of selection for permanent employment potentially
constitute adverse employment actions for the purposes of her discrimination claim.
See Pegrum v. Honeywell, Inc., 361 F.3d 272,282 (5th Cir.2004). (USDC, USDC
Magistrate’s R & R, p. 10, 2019/02/26)
In the magistrate’s R & R it is stated, ‘Watson has not identified any specific
comparator with respect to her termination and denial of leave allegations. (USDC,
USDC Magistrate’s R & R, p. 10, 2019/02/26)

10

Vacancy 027272, but the hiring record at pg. 3019 shows that Ms. Saenz was hired.’
(USDC Case: 5:17-cV-01280-OLG-ESC, Defendant’s Motion for Summary Judgment,
Document 21, p. 5, 2018/09/26).
In my Response to the Defendant’s Motion for Summary Judgment, I stated:
‘Before this time I was just sitting there for 3 months or so doing
nothing but reading manuals basically. When I received my access, I
acclimated my ideal job from the procedure manual by maneuvering
the computerized programs based on the written procedure manuals
and reference books. No one aggressively trained me like Nadine a
senior auditor trained the Ms. Saenz and Ms. Gomez/ (USDC,
Appellant’s Response to Defendant’s Motion for Summary Judgment,
Case: 5:17-cv-1280-OLG, Document 22, p. 3, 2018/10/03)
In my Response to the Defendant’s Motion for Summary Judgment, I stated: .
‘For reasons named above and specifically because the agency still
has not provided the following: 1) the initial performance document,
not the 67% derived from the paper audit questions, 2) the fair
grading method used by the trainers or written SOP, standard
operating procedure manual, and 3) how can it be explained fairly,
consistently and correctly that I was excluded from the preferential
treatment that was given to the two new hires when they were
selected as permanent employees, were obviously exempt from the
90 day training on a dead audit, privileged to work comp time and
overtime, were able to attend the ICD 10 training, and trained
aggressively by a senior auditor within the first day or so of hire
using paper audits (the same paper audit training I began for
myself when I was waiting for almost 4 months for my HIPAA
clearance)-yet they received their training without HIPAA
>

. t

*

clearance when Ms. Leal stated I couldn t train this way because
, the HIPAA was required for me-Plaintiff humbly prays this court
will grant full relief and to be made whole without reprisal.’ (USDC,
Appellant’s Response to Defendant’s Motion for Summary Judgment,
Case: 5:17-cv-1280-OLG, Document 22, p. 20, 21, 2018/10/03)

In my response to the Defendant’s Motion for Summary Judgment, I
12

stated:
‘Disparity is obvious during the May 15, 2013 recordings, when my
supervisor told me I couldn't have trained on paper audits like the
two hires because I didn't have my HIPAA clearance. The two hires
were being trained from their initial hire date with paper audits
while they awaited their HIPAA clearance. She humiliated me
when she told me I had only coded one or two since June, July,
August, September, and I that I didn't complete anymore until
October. I had no access during the months she accused me of
lacking in my work.’ (dckt # 13 , p. 12 of 349). (USDC, Appellant’s
Response to Defendant’s Motion for Summary Judgment, Case: 5:17cv-1280-OLG, Document 22, p. 6, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I
stated:
The Monday after valentine's weekend, I recall
checking Ms .Saenz' report of completed audits by user
name, and learned that she had completed a total in the
low 50's for that Friday just before that Saturday,
February 14, 2013 the day Ms. Leal, our supervisor
allowed her to work comp/over time. Ms. Leal also
stated that meeting productivity is a requirement to
work overtime/comp time. Ms. Saenz, had only been on
the job working the live audit for two weeks. Prior to
her clearance, she was able to train on paper audits
unlike me. I believe the paper audits were utilized by
the senior auditor because that's how I began to train
myself to learn the job. My paper questions were used
as failure for me when the trainer graded the
questions and gave me a 67%. During the 30-60-90,1
questioned the grading method because of this 67%.
Neither of the two hires went through a 30-60-90.
Most discriminatory, I never had an initial evaluation.
The questions from my paper audit were not my initial.
The burden of proof remains for the agency to produce
the initial evaluation, (dckt #13 , p. 39 of 349) (USDC,
Appellant’s Response to Defendant’s Motion for Summary
Judgment, Case: 5:17-cv-1280-OLG, Document 22, p. 9,
2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I
13

In the Defendant’s Motion for Summary Judgment, it is stated:
To state a prima facie case of and national origin discrimination,
Plaintiff must prove that: (1) she is a member of a protected class; (2)
she was qualified for her position; (3) she suffered an adverse
employment action; and (4) similarly-situated employees outside her
protected class received better treatment, or she was replaced by a
person outside her protected class. McCoy v. City of Shreveport, 492
F.3d 551, 556 (5th Cir. 2007); Toronka v. Cont’l Airlines, Inc, 411
F.App’x 719, 723 (5th Cir. 2011). Even where Plaintiffs case concerns
adverse employment actions, judgment should be entered for
Defendant because Plaintiff cannot produce any evidence to support
the fourth element of a prima facie case. Celotex Corp., 477 U.S. at
322. (USDC, Defendant’s Motion for Summary Judgment, Document
21, p. 4, 2018/09/26).
In the Defendant’s Motion for Summary Judgment, it is stated:
‘As to the first non-selection, Plaintiff was already performing poorly at
her current job. The second and third non-selections occurred because
she was not qualified for the positions for which she applied. Finally,
she was terminated because of her consistently poor performance on
the job. Because Plaintiff has no evidence of pretext (let alone
“substantial evidence”), judgment should be entered for Defendant.
Nasti, 492 F.3d at 593; Auguster, 249 F.3d at 402-403.’ (USDC,
Defendant’s Motion for Summary Judgment, Document 21, p. 8,
2018/09/26).
My question pertaining to the PIP assignment was punitive and reprisal after my
140 physician workstation errors but all auditors marked them differently. During
the AJ hearing during the Report of Investigation, Administrative Judge Hearing,
Office of Federal Operations, US District Court and lastly US Court of Appeals. I.
In the USCA. The following facts are material to this question presented: USDC,
OFO, AJ Hearing.

15

stated:
I didn't feel safe in my work environment to even
directly meet with Ms. Leal. To answer my questions, I
requested her written word over her spoken word. She
had a tendency to be inconsistent. I told her that the two
new hires shouldn't be preferred and exempt from the 90
day dead audit training. The oppressing stipulations
placed on me were very unfair, (dckt # 13 , pp. 158-162
of 349). (USDC, Appellant’s Response to Defendant’s
Motion for Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p. 13, 14, 2018/10/03)
My question pertaining to USCA’s dismissal of my prima facie facts about
termination and nonselection and failure to question why the USDC cited only one
comparant rather than two as raised during all levels of the proceedings of my case
during the Report of Investigation, Administrative Judge Hearing, Office of Federal
Operations, US District Court and lastly US Court of Appeals. I. In the USCA. The
following facts are material to this question presented: USDC, OFO, AJ Hearing
USCA 5th Circuit stated:
‘Even if this court were to accept Watson’s assertions that she has
established a prima facie case of discrimination, she still fails to rebut
the Army’s reasons as pretextual. The Army made clear to Watson
that her performance was subpar, and it offered her ample opportunity
to meet its required thresholds. Yet she repeatedly failed to meet
preestablished accuracy standards, as evidenced by her assessments
and performance on her PIP. Her shortcomings provide a
nondiscriminatory explanation as to both the Army’s decision to
terminate her employment and its decision to hire other candidates for
the various positions to which she applied. Because Watson offers no
evidence to rebut the Army’s reasons, summary judgment is
appropriate.11’ (USCA, USCA 5th Circuit Affirms USDC summary
judgment, document 00515223446, p.4, 2019/12/04)

14

USCA 5th Circuit stated in footnote 11, ‘Watson admits in her brief that the Army
explained to her she was terminated “because [she] failed the PIP” without
explaining how the reason was pretextual. (USCA, USCA 5th Circuit Affirms USDC
summary judgment, document 00515223446, p.4, 2019/12/04)
USCA 5th Circuit stated in footnote 1, ‘Watson underwent three performance
reviews but never achieved the required accuracy standard of 93% on her
assessments. She fared no better in her “live” audit; amongst the litany of errors
committed, she incorrectly copy-and-pasted a generic error message 140 times.’
(USCA, USCA 5th Circuit Affirms USDC summary judgment, document
00515223446, p.2, 2019/12/04)
USCA 5th Circuit stated, ‘While Watson points to several incidents that she believes
establish harassment, she fails to show how these incidents-such as not being able
to attend a training and being placed on a PIP-were tied to her race.’ (USCA, USCA
5th Circuit Affirms USDC summary judgment, document 00515223446, p.5,
2019/12/04)
In my petition for panel hearing/rehearing en banc, I asked for reconsideration of
the concise statement under item 6: ‘Physician Station Workstation Errors was
common to all auditors. I was the only auditor punished with the PIP.’ (USCA 5th
Circuit, APPELLANT’S PETITION FOR PANEL. HEARING/REHEARING EN
BANC, P 2, 2019/12/17)

16

In my petition for panel hearing/rehearing en banc, I asked for reconsideration of
the concise statement under item 5: ‘Employee counsel representative Mr. Henry
stated that an employee who feels threatened will produce little. He also agreed to
testify if subpoenaed. The PIP was an adverse action while participating in a
protected EEO activity.’ (USCA 5th Circuit, APPELLANT’S PETITION FOR
PANEL HEARING/REHEARING EN BANC, P 2, 2019/12/17)
In the magistrate’s R & R, it is stated, ‘Therefore, Watson’s placement on a PIP
bcannot constitute an adverse employment action to support her retaliation claim.
See Jackson, 601 Fed. App’x at 286. Thus, the only two acts of which Watson
complains which could constitute an adverse employment action for purposes of her
retaliation claim are Watson’s termination and Defendant’s failure to hire her for a
permanent position. (USDC, USDC Magistrate’s R & R, p. 15, 2019/02/26)
In my Response to the Defendant’s Motion for Summary Judgment, I stated:
‘Ms. Leal left a note on my desk for me to come and see her
while I was at a meeting with Mr. Henry, EAP director. I met
with employee counsel to seek guidance about the questions
concerning the reassignment on March 1, 2013. Ms. Leal was
sweating bullets meaning her neck was visibly red. She was so
obviously nervous. Had no idea this would be a PIP
notification. I honestly and literally thought she was calling me
in for the physician workstation errors of which my site had
about 140 errors. Again, these physician workstation errors
applied to all the auditors on my team, but I was the only person
who was called out. I marked them as was advised by a senior
auditor Ms. Gonzalez. Ms. Gonzalez's email on how to mark the
physician workstation is documented in her email attached.
Literally the 140 errors were not my fault. I marked them as
was advised, (dckt# 13, pp 147-148 of 349) (dckt #13 , p. 182
17

constantly compared me to the other auditors when I
was the only auditor on a PIP and was subject the
May audit (dead audit). She asked what does my
PIP dumps & PIP blues feelings have to do with
my productivity. She justified it by saying we
are all auditors in the same job description, but I
was the only auditor doing something totally
different. {Dckt#13, p. 1 of 349 & p. 11 of 349)
(USDC, Appellant’s Response to Defendant’s Motion
for Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p. 6, 7, 2018/10/03)
I was the only auditor removed from the live audit on March
1, 2013 after multiple physician workstation errors occurred
at one of my assigned sites in California I believe. It wasn't
that the occurrence of errors was unique to just me, but this
particular site had so many. All of the auditors had physician
workstation errors. I marked the error as Ms. Gonzalez, a
senior auditor had advised. This was a common denominator
to all auditors but I was the only auditor removed from the
live audit. I really felt bad. The two hires weren't required to
work the dead audit. Neither were they required to
complete a 30-60-90) (dckt # 13 , pp. 26-28 of 349) (dckt # 13 ,
p.182 of 349)
I anticipated testimony from all my peers about
the Physician Workstation Errors. All of the
auditors had these errors, (dckt# 13 , pp. 120130 of 349) I felt singled out when Ms. Leal
removed me from the live audit on March 1
because of this. No other auditor was removed
from the live audit due to the physician
workstation. I'd been asking about the physician
workstation training that she promised all
throughout the PIP. I literally thought that the
physician workstations issue was the reason she
called me in her office, but it was something
serious and harsh-the PIP. I'd informed Ms.
Leal via email that I'd filed a formal EEO. I
knew she wasn't okay with that because she told
me that I should report to her office
immediately. I discussed with former counsel
that my amendments pertaining to the
recordings of the two May meetings were
omitted and may not be considered for
19

of 349). (USDC, Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-1280-OLG, Document 22, p.
15, 2018/10/03)
In my Response to the Defendant’s Motion for Summary Judgment, I stated:
‘My feelings/responses about the PIP assignment is attached.
Regardless to the proximity of the PIP assignment to my
formal EEO complaint filing, it happened and it's real. Why
would management assign a PIP 9 days after I filed an EEO
due to performance when after the 90 days, better yet - after
the 67% so called initial performance failure back in October
and/or December seemed the more likely and reasonable
time for such a ridiculous assignment. If the PIP was so pure
& not piss-in my opinion, and was intended to truly help
me, why didn't the agency allow me a chance to review
weeks 8 and 9 before they wrongfully terminated me
causing both my daughter and me unquantifiable losses
and sufferings. Please note that comments of my review of
weeks 8 and 9 are clearly absent from page 278 of 349. (Dckt
# 13 , pp. 267-280 of 349). (USDC, Appellant’s Response to
Defendant’s Motion for Summary Judgment, Case: 5:17-cv-1280OLG, Document 22, p. 17,18, 2018/10/03)
In my Response to the Defendant’s Motion for Summary Judgment, I
stated:
‘My supervisor expected me to produce and work
in hostile work environments when she exclaimed
'regardless if it was the May audit or the live, I
still wanted you to show me that you could do the
audits'. During the same recording (May 15, 2013
meeting} she indicated that the PIP scores didn't
tell her anything about my needs or the lack when
she stated 'Because from here, I couldn't tell if you
needed training on E/M, on the CPT or the ICD.
It was like it fluctuated a lot.’ (dckt #13 , p. 12 of
349). (USDC, Appellant’s Response to Defendant’s
Motion for Summary Judgment, Case: 5:17-cv-1280OLG, Document 22, p. 5, 2018/10/03)
Harsh work environment & feelings of alienation
surrounding the PIP existed when my supervisor
18

declaration, (dckt #13 pp. 35-36 of 349) (USDC,
Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p. 6,7,8, 2018/10/03)
In my Response to the Defendant’s Motion for Summary Judgment, I
stated, ‘The EAP (employee assistance) Director, Mr. Henry,
responded to me that an employee will produce little when they
feel threatened. I expressed these concerns to him after being
placed on the PIP. He also agreed to testify on my behalf regarding
this if needed.’ (dckt # 13 , pp. 108-110 of 349) (USDC, Appellant’s
Response to Defendant’s Motion for Summary Judgment, Case: 5:17cv-1280-OLG, Document 22, p.ll, 2018/10/03)
In my Response to the Defendant’s Motion for Summary Judgment, I
stated, ‘Unfair working environment experienced during the PIP
when Ms. Leal refused to grade me on a random sample as the PIP
stated. Instead she graded me on 100% of everything I audited.’
(dckt # 13, pp. 152-155 of 349) (USDC, Appellant’s Response to
Defendant’s Motion for Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p.13, 2018/10/03)
The ICD 10 training was never based on productivity. USCA 5th Circuit stated,
‘While Watson points to several incidents that she believes establish harassment,
she fails to show how these incidents-such as not being able to attend a training and
being placed on a PIP-were tied to her race.’ (USCA, USCA 5th Circuit Affirms
USDC summary judgment, document 00515223446, p.5, 2019/12/04)
20

In my petition for panel hearing/rehearing en banc, I asked for reconsideration of
the concise statement under item 7:
‘ICD 10 training was not based on productivity when it was
promised to me in early 2012. It was not until the nonselection
of a permanent position in early 2013 while I was already under
a bogus 30-60-90 that was allegedly justified after I failed a so
called initial that to date still has not been substantiated by the
agency.’ (USCA 5th Circuit, APPELLANT’S PETITION FOR
PANEL HEARING/REHEARING EN BANC, P 2, 2019/12/17)
In my response to the Defendant’s Motion for Summary Judgment, I stated:
‘As for the training, I’m glad the agency agrees that they allowed
the Ms. Saenz and Ms. Maria Gomez to attend the training in
Dallas. This admits their wrongdoing for the simple fact I
wasn’t allowed to go. This was not fair. All of the other
Hispanic or Caucasian employees were allowed to go to other
places, i.e. Colorado, California, etc. earlier in 2012 prior to my
coming. I’d asked about going but wasn’t allowed. The only
other African American female in the department received her
training prior to being hired at PASBA. ‘(USDC, Appellant’s
Response to Defendant’s Motion for Summary Judgment, Case:
5:17-cv-1280-OLG, Document 22, p4, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I stated:
Administrative judge stated that my degree was
higher than the two new hires. This was not the
combustion of my complaint. It was because I felt
they shouldn't have been preferred over me since
I was already there and had already gained
knowledge of the job. It was also wrong that they
were allowed to attend the ICD 10 training in
Dallas. Because it happened for them and not
me, prove the disparity regardless if there were
funding or not. Ms. Leal indicated I couldn't go
due to the lack of funding. (Dckt # 18 , p. 45 of
74) ‘(USDC, Appellant’s Response to Defendant’s
Motion for Summary Judgment, Case: 5:17-cv1280-OLG, Document 22, p. 6, 2018/10/03)

21

going to terminate you Ms. Watson, but I don’t plan on doing
that.’ Subsequently in a second May 2013 meeting, she denied
she ever said that stating it’s no longer in her hands.’ (USCA 5th
Circuit, APPELLANT’S PETITION FOR PANEL
HEARING/REHEARING EN BANC, P 2, 2019/12/17)
In my petition for panel hearing/rehearing en banc, I asked for
reconsideration of the concise statement under item 4: ‘Two Peer
testimonies were never allowed after former counsel stated they
could before the AJ after he sneakingly removed over 30 of my
complaints that paralleled with the recordings..’ (USCA 5th
Circuit, APPELLANT’S PETITION FOR PANEL
HEARING/REHEARING EN BANC, P 2, 2019/12/17)
USDC Order Adopting R&R stated, ‘The Court has conducted an independent
review of the entire record and the applicable law and a de novo review of the
matters raised in Plaintiffs objections.’ (USDC, USDC Order Adopting R&R, p.l,
2019/03/18) USDC Order Adopting R&R stated:
The majority of Plaintiffs objections largely rehash substantive
arguments that were made in the prior briefing to Judge
Chestney.1 Compare docket no. 28 pp. 4-11 with docket no. 22
pp. 3-20. Judge Chestney’s R&R correctly addressed those
arguments and explained in detail why Plaintiffs claims for
discrimination, retaliation and hostile work environment each
fail as a matter of law. See docket 26. The Court has conducted
a de novo review of the record and the underlying law, and the
Court has arrived at the same conclusions. Accordingly, the
Court adopts Judge Chestney’s findings and conclusions of law
with respect to each claim.
(USDC, USDC Order Adopting
R&R, p.2, 2019/03/18)
USDC Order Adopting R&R stated:
‘The Court notes that Plaintiffs objections also contain details
regarding Plaintiffs difficulties over the past several years, and
the Court does not wish to minimize those difficulties. See
docket no. 26 pp.1-2. However, the Court’s sole duty is to
address the legal merits of Plaintiffs claims in light of the
evidence in the record, and having done so in this case, the
Court agrees that plaintiffs claims fail as a matter of law.
23

In my response to the Defendant’s Motion for Summary Judgment, I stated:
£I initially asked supervisor, Mr. Allen during
August 2012 about attending the ICD-10
training. I later reminded him. In January 2013,
I asked Ms. Leal, she told me know. When I
questioned why I was not allowed to go she
stated it was due to lack of funding. Two hires
were allowed to go without reservation. They
never completed any kind of training on a dead
audit, only the live audit. Neither were they
required to complete a 30-60-90 for their initial
training. I was told early December by Mr. Allen
at the end of my 60 day evaluation (early
December) that Ms. Leal wanted to place me bn
a PIP. (dckt #13, pp. 131-136 of 349)‘ (USDC,
Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p. 12, 2018/10/03)
There were Nine Recordings and a partial transcript considered vs. Eleven
Recordings that should have been considered. USCA 5th Circuit stated:
‘Lastly, Watson argues the district court erred in denying her
motion to reconsider “[W]hen the district court denies a motion
to reconsider a grant of summary judgment, but, in doing so,
considers any materials attached thereto and still grants
summary judgment, our review is de novo, as those materials
become part of the summary judgment record. “18 Watson argues
the district court improperly excluded recordings, which validate
her claims. These recordings, however, do not support Watson.
If anything, the tapes provide further evidence that the Army’s
reasons for her termination were not pretextual. The district
court properly rejected Watson’s motion to reconsider.’ (USCA,
USCA 5th Circuit Affirms USDC summary judgment, document
00515223446, p.6, 2019/12/04)
In my petition for panel hearing/rehearing en banc, I asked for reconsideration of
the concise statement under item 3:
‘ No Recordings for the one hour plus meetings. Former
supervisor, Ms. Leal, stated on one recording ‘you think I’m
22

According, Defendant is entitled to summary judgment.’
(USDC, USDC Order Adopting R&R, p.2, 2019/03/18)
In my response to the Defendant’s Motion for Summary Judgment, I stated:
Hard copy recordings were provided to former
counsel on Monday, September 8, 2014. (Dckt # 18
, p. 25 of 74) The email dated 9/5/14@ 08:45 proves
that the recordings, which paralleled to almost 30
complaints and which were removed by former
counsel and the agency without my consent,
would be added. Former counsel stated in the
email dated 9/4/14 @1:56 'send hard copy to me,
1777 NE Loop 410, Suite 600, San Antonio, TX
78217,1 will forward it to them as a part of your
responses.' (Dckt# 18 , p. 55 of74) My supervisor
asked me during the May 15, 2013 recording, if I
think she will demote me/terminate me? She
added. I don't even plan on doing that, (dckt# 13 ,
p.6 of 349) Supervisor contradicted her belief in
my ability to do the job during the May 15, 2013,
recording when she indicated I know you can do
that job but you're not meeting me half way. (Dckt
#13 , p. 4 of 349) On p. 5 of 349, she stated 'I don't
have confidence in you that you can do it.' (USDC,
Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p4, 5, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I
stated, ‘I felt horrible when I learned that the agency had removed
28 of my formal complaints. The 28 paralleled with the recordings
from May 15, 2013 @ 3:03 pm (1 hour, 11 mins, 39 seconds) and the
May 31, 2013 @ 2:35 pm (38 minutes, 13 seconds) meetings held with
my supervisor Ms. Leal. The memo is dated November 8, 2013.’ {dckt
# 13 , pp. 17-21 of 349) (USDC, Appellant’s Response to Defendant’s
Motion for Summary Judgment, Case: 5:17-cv-1280-OLG, Document
24

22, p. 7, 2018/10/03)

In my response to the Defendant’s Motion for Summary Judgment, I stated:
My 28 amendments were put back per memo
dated 1/27/2014. It was not fair that I couldn't
testify concerning these at the AJ hearing. Most
of all, it was totally unfair for my former counsel
to say that I could easily testify to those meetings
without them being listed as amendments and
agreed with the agency for their removal.
Contrastingly enough, I was told I could testify
per my former counsel's email, but when I
actually tried to testify at the AJ hearing, he
whispered to me that I can't testify about that. I
was totally shocked and perplexed that my
counsel had not presented the recordings as
evidence and I didn't know of this until the day of
the hearing. I went through so much as a
homeless and unemployed person that it was a
strain just to find media and postage to express
mail these recordings and they were ignored on
all levels. The agency was provided a copy as well,
(dckt# 13 ,p 36 of 349 &pp. 58-60 of 349). (USDC,
Appellant’s Response to Defendant’s Motion for
Summary Judgment, Case: 5:17-cv-1280-OLG,
Document 22, p. 9,10, 2018/10/03)
In my response to the Defendant’s Motion for Summary Judgment, I stated:
Ms. Leal assured me per the recordings from
the May 15, 2013, meeting, that she planned to
neither demote me nor terminate me. When I
asked her in the May 28, 2013 meeting, she
denied every saying that. She also stated that
both the May audit (dead audit) and the live
audit were equally important; yet, I was the
only single auditor working the dead audit
throughout the 30-60-90, the March 1, 2013
reassignment, and during the PIP." (dckt # 13 ,
pp. 141-143 of 349) (USDC, Appellant’s Response
to Defendant’s Motion for Summary Judgment,
25

an adverse action, but the termination and nonselection could constitute for
retaliation purposes. USDC said termination, denial of leave, and nonselection
could constitute an employer’s adverse action on a discrimination claim. The
Defendant’s motion for summary judgment, that was ultimately granted and
affirmed by both USDC and USCA, stated that only the termination and
nonselections claims were supported for discrimination analysis. This is an obvious
conflict. USDC stated that a PIP is not an adverse action for retaliation claims,
only the termination and nonselection. How CAN anyone not see that the PIP was
purely reprisal based on my race? It didn’t happen to any other auditor. All
auditors made the physician workstation errors. The assignment date of the PIP
and the behavior of management towards my protected activity are coincidental for
a reason. Why would management punish me after I was praised by a senior
auditor, Ms. Shears for my live audit participation in the mediation? Defendant
also stated that Plaintiff cannot produce any evidence to support the fourth element
of a prima facie case. Celotex Corp., 477 U.S. at 322. As I understand EEO is a
protected activity, but my understanding is void as to why the Defendant believes
that both Ms. Saenz, and Ms. Gomez, who received better treatment than me, (i.e.
selected for permanent positions, able to work comp time during Valentine’s
weekend 2013 without making productivity, exempt from training on a dead audit,
exempt from having HIPAA clearance before training, provided training
aggressively on day 1 of hire with the paper audits, ICD 10 training, etc) who were
not under an EEO protected activity, defeats the meaning of my proffered text

27

Case: 5:17-cv-1280-OLG, Document 22, p. 12, 13,
2018/10/03)
DIRECT AND CONCISE ARGUMENT AMPLIFYING THE REASONS
RELIED ON FOR WRIT ALLOWANCE
The USCA stated that I failed my initial quality assessment, given 90 days, then
placed on a PIP. USCA stated that Defendant’s legitimate and nondiscriminatory
reason for firing me was the alleged subpar performance. USCA stated that the
summary judgment is appropriate because no genuine dispute of material fact
exists. The USCA agreed with the USDC basis for the summary judgment due to
my inability to establish a prima facie case and the failure to rebut the Defendant’s
nondiscriminatory reason as pretextual. USCA stated ‘To survive summary
judgment, Watson must show the alleged harassment was “sufficiently severe or
pervasive to alter the conditions of the victim’s employment and create an abusive
working environment.” USCA stated that I wrote in my brief that the Army
explained that I was terminated ‘because I failed the PIP’ without explaining how
the reason was pretextual. USCA stated that I never achieved the required
accuracy standard 93%.
Per the March 18, 2019, USDC Order, The Court claimed to have conducted an
independent review of the entire record. It is stated in footnote one that my
transcripts of the recordings (not particularly the partial transcript of one of the
hour plus meeting with supervisor) were considered.
USDC referenced my initial coding results from the Quality Assurance as the true
basis for the alleged performance issues. USDC stated that a PIP cannot constitute
26

that the decision to terminate me based on performance is still discriminatory and
based on my race. How is it lawful for the USDC to grant the Defendant a
summary judgment based on performance issues and conclude that I failed to
establish pretext? Discriminatory how?--Because there nondiscriminatory reason of
terminating me is based on my alleged failure performance after that phony initial,
after that phony 90 day plan, after that illegal PIP. There is no justice in the
summary judgment when everything that has happened to me was a trickle down
hot mess affect from everything that didn’t happen for me as everyone in
management has provided sworn statements that all new auditors are given 30
audits for a QA assessment-this is called an initial QA assessment. This applied to
all auditors except me. I never had an initial. Tam asking the Supreme Court to
help me decipher, because I’m truly not understanding why I’m fired today, can’t
get a job after 7 years, was subject a bogus initial, bogus 90 day that was based on a
bogus initial, placed on a bogus PIP that was based on the former-yet there is no
proffered text from the agency for their ‘nondiscriminatory decision-performance’.
Yet, the Defendant is covered by both Courts in that they fired me ‘CORRECTLY?”
There is no correctness in what was done to me since the alleged failure of the so
called initial QA all the way throughout and up to the wrongful termination based
on this BOGUS, PHONY, ILLEGAL so called initial. This simply means there is
really nothing else to talk about until the agency proffers. It’s very confusing that
both USCA and USDC never asked the Defendant to provide the initial since I’ve
spent a lot of borrowed money and time to get my concerns fixed through their

28

courts, but USDC can take time to reference the Defendant’s comments that based
on Watson’s initial coding results from the QA [Her performance marked as Fails
had she been under standards.] Let that sink in for a minute. Sounds a bit
presumptuous right? To correct this manifest error or law due to this genuine and
relevant issue is sincerely appreciated. Truth ‘real talk’-Everything after that so
called initial, including that 90 day, the PIP, nonselections, and the termination
should be considered moot. If the burden of the so called initial was correctly
assumed by the obviously guilty party, then there wouldn’t be a page 1 of this writ
to include questions 2 through 8’. I asked for it just a few days after it happened.
An obvious breakdown in communication exists within the Army concerning my
initial. The record speaks for itself concerning this. Even in the Defendant’s brief,
they weren’t certain what an ‘initial’ is. To cause all this pain and suffering on my
life for the justification of all these adverse actions is just wrong. It’s further
asinine that the Agency doesn’t proffer any reasons for the lack of this critical piece
but feels entitled to this injustice. I have proffered that this nondiscriminatory
claim is discriminatory and adverse due to my race and caused unnecessary duress
on my life through hostile working environments, nonselection, disparity in the
comp time and and so much more, ultimately termination-as pretext and the
Agency inspite of their saying it was the nondiscriminatory performance is still
discriminatory and it shouldn’t have happened. Since performance is what both
USCA and USDC agreed, where is the evidence upon which the failed performance
is based-SO CALLED INITIAL. After almost 7 years (I’m fastly approaching 22

29

The USDG said I didn’t allege any change in the level of responsibility. USCA
didn’t answer these concerns either. I was uprooted from the live audit to work the
dead audit after the 140 physician workstation errors. Why would management do
this except for my race? No other auditor experienced this. I wish I could
understand the swift demotion from the live audit to the dead audit after the March
7, 2013 reassignment. EEO formal complaint was filed around March 19, 2013. All
of a sudden a rushing mighty wind of a PIP came on or around March 28, 2013.
?????

District Court said I didn’t’ specify a comparator with respect to denial of leave
allegations. What’s hard to understand my allegation of the denial of comp time?
Both Ms. Saenz and I wanted to work comp/overtime the weekend of Valentines
2013. She was allowed. I was not. This is a specification to the denial of leave. If
it was totally based on required productivity, why then was Ms. Saenz, and not me,
allowed to work. The CARA productivity report proves this. Why haven’t the
agency proffered a true nondiscriminatory reason for disallowing me to work comp
time? District Court just stated the documents wouldn’t be provided. Why is it that
the USCA didn’t require the agency to provide this? This is not new evidence that
was not present at the time of the summary judgment. I don’t understand. This
example proves prima facie. Ms. Saenz was not better qualified than me for the
selection because she and I both came from two different VA facilities. She had a
two year certification, RHIT. I had a 4 year certification, RHIA. She had an
outpatient coding certification, CCS-P. I have a CCS certification which is for both
31

years of federal service come May 1, 1998), needless to say, my family and I are
grossly exasperated and almost wretched since that sad day in 2013 when I lost my
job over nothing. ‘Nothing’ here, literally means, nothing-NO Initial QA. I’m open
to settlement, and would respect the consideration of relief as listed. As before: a)
Reinstatement with clean SF-50 into a promoted GS 0669 MRA- Medical Record
Administrator grade 13/14) Title 6 with a minimum annual salary of $105,000 or
more based on the steps within grade increases based on SAA, special advance and
achievement (B.S. Health Record Administration, RHIA and CCS certifications
equals a step each), recognition of years of experience (i.e., 5 years equals one step);,
b) With immediate option for retirement with full benefits due to this involuntary
separation; c) Service year pins for 15 and 20 years of service as well as the
appropriate certificate of awards for the respective years and retirement award to
be mailed to the address contained; d) Sick leave accrued balances should count
toward retirement years; e) Annual leave accrued balances should be a separate
check of deposit to the last DFAS direct deposit payroll account on file; f) Lost/Front
pay with interest from termination date to date prior the first anticipated deposit
date for retirement pay; and g) Nonpecuniary damages is requested to parallel with
twice the amount of Lost/Back Pay with Interest and/or the maximum for Texas
nonpecuniary damages (last I researched it was $750,000) whichever is greater. I
prefer direct deposit of all the above relief items as appropriate, and a paper copy
along with the W2 to be mailed to the address contained.

30

outpatient and inpatient coding. Both Ms. Saenz and. Gomez where allowed to work
the paper audits during the first day of hire without the required HIPAA clearance.
The recordings from the two hour plus meetings prove Ms. Leal told me I couldn’t
train on paper audits without this clearance. Ms. Gomez was not researched and
identified as the comparator by neither USCA nor USDC. She may not have
appeared on the hiring record, but please believe she was hired over me and guess
what? She had neither a bachelor’s degree nor a certification similar to Ms. Saenz
or me. She was a CPC, certified procedural coder, which does not require a degree
at all.
USDC stated when the hiring decision was made [Watson’s performance was rated
as failing already.] This shouldn’t have had any bearings on my being selected or
not. The 90 day was unconstitutional and a direct violation of my civil rights. The
agency based their decision to place me on a 90 day, PIP, termination because they
said I failed my so called initial QA. I’ve asked this ridiculously too many times and
what....ECHO!!
USDC stated that an independent review of the entire record was accomplished in
their Court. This statement contradicts with reality. There were 11 recordings
total. The two over a hour long recordings were not available to me at the time of
summary judgment due to losses. However, they were available to the Defendant.
There was a partial transcript of one of the over an hour meetings present. I feel
that it was only right for USDC and USCA to listen to all 11 recordings. USCA
requested from USDC the USB drive that contained the 9 recordings only, and
32

made an impartial and unfair decision to dispute all of my recordings when they in
fact had not listened to all of them.
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,

Lisa L. Watson, prose’
Pendleton Square Apt. #11,
Philadelphia, MS 39350
lisalw@vahoo .com
(601) 594-5024

Date:

3T

